                                      Review of a Utility Company’s Use of RUS Financial 
                                                           Assistance 
                                                                         
                                                      Audit Report 09703-0002-22 

What Were OIG’s

Objectives

The objective of this audit was
to determine if a utility
company complied with
program requirements.
                                   OIG reviewed the use of loan and grant 
What OIG Reviewed                  funds by a Rural Utilities Service Water and 
We reviewed how a utility
                                   Waste Disposal program participant. 
company used loan and grant
funds during a specified time      What OIG Found
period.
                                   In response to hotline complaints about a utility company, the
What OIG Recommends                Department of Agriculture (USDA) Office of Inspector General
                                   (OIG) reviewed how the company used funding provided through the
We recommended that RUS            Rural Utility Service’s (RUS) Water and Waste Disposal (WWD)
de-obligate funding from and       Direct Loan and Grant Program.
not provide additional funding
to the company until all prior     Generally, we found that the support for the sample of expenditures
agreed to conditions are met.      for the two projects we reviewed was reasonable, and that the
Additionally, RUS needs to         company followed proper procedures for awarding construction
strengthen its internal controls   contracts. However, we found the company violated program
to provide reasonable              requirements with regards to fiscal responsibility which resulted in
assurance for detecting and        our questioning of more than $38 million in funding the borrower had
correcting the issues we           received for recent projects. Further, we found that RUS’ oversight
identified.                        was not sufficient to identify the issues the audit disclosed.

                                   RUS agreed with our findings and we have accepted management
                                   decision on all of the report recommendations. This includes an
                                   agreement by RUS to de-obligate more than $11 million in unused
                                   loan and grant funds.

                                   Due to statutory Federal privacy concerns regarding the subjects of
                                   hotline complaints, the full text of the report is being withheld from
                                   public release.
